  Additional Copies
  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at http://www.dodig.osd.mil/audit/reports or
  contact the Office of Audit Policy and Oversight at (703) 604-8760 or
  fax (703) 604-9808.

  Suggestions for Future Audits

  To suggest ideas for or to request future reviews, contact Audit Policy and
  Oversight at (703) 604-8760 (DSN 664-8760) or fax (703) 604-9808. Ideas and
  requests can also be mailed to:

                                    ODIG-APO
                   Inspector General of the Department of Defense
                        400 Army Navy Drive (Room 1016)
                             Arlington, VA 22202-4704




Acronyms
DFAS           Defense Finance and Accounting Service
GAS            Government Auditing Standards
OIR            Office of Internal Review
PCIE           President’s Council on Integrity and Efficiency
Comments, Observations, and Recommendations
Independence Requirements for Audit Managers, Experts, and Non audit Services.
The DFAS OIR Audit Manual, Chapter 1210, addresses impairments to independence for
the audit staff. However, the policy does not address guidance for audit management,
experts, and non audit services, which increases the risk of impairments to independence.
The GAS Independence Standard, Amendment No. 3, was issued January 2002 and
became effective on January 1, 2003. The Independence standard substantially changed
the previous standard to better serve the public interest and to maintain a high degree of
integrity, objectivity, and independence for audits of government entities.

        Two of the six audits that we reviewed were completed after the January 2003
GAS Independence Standard, Amendment No. 3, became effective. On the two audits,
the audit managers did not document their independence on the audit project. The GAS
Independence Standard places the responsibility to fulfill the requirements of the
standard on both the individual auditor and the audit organization. Although, DFAS OIR
Audit Manual, Chapter 1210 requires the audit team members to complete a Statement of
Independence, the site manager, who plans and reviews the audit work, is not addressed
in the policy.

        Also, the DFAS OIR policy for independence does not include guidance for
documenting impairments to independence when subject matter experts are used. We
reviewed an audit project in which persons from a functional area under audit were used
as subject matter experts. On the audit project an individual worked as both a subject
matter expert and an interviewee to substantiate information on the audit subject area.
GAS, 1994 revision, paragraph 3.14 states “Government auditors, including hired
consultants and internal experts and specialists, need to consider three general classes of
impairments to independence ⎯ personal, external, and organizational. If one or more of
these independence impairments affects an auditor’s ability to do the work and report
findings impartially, in the situations where the auditor cannot decline to perform the
audit the impairment should be reported in the scope section of the audit report.” In this
case, we found no documentation on how the independence of the internal experts was
addressed. GAS, 2003 revision, though not a requirement at the time, states, “if the
specialist has an impairment to independence, auditors should not use the work of that
specialist” (GAS, paragraph 3.06). The fact that DFAS OIR did not identify the
impairment indicates the need to strengthen its policy and ensure that audit team
members including internal experts are independent.

        In addition, DFAS OIR independence policy did not address non audit services.
DFAS OIR conducts consulting services for DFAS but has not established safeguards to
reduce the risk of breaching or violating the overarching principles. The overarching
principles as stated in GAS Independence Standard, Amendment No. 3 and GAS 2003
revision are “(1) audit organizations should not provide nonaudit services that involve
performing management functions or making management decisions and (2) audit
organizations should not audit their own work or provide nonaudit services in situations
where the nonaudit services are significant/material to the subject matter of the audits”
(GAS, 2003 revision, paragraph 3.13). GAS Independence Standard, Amendment No. 3,
went into effect January 1, 2003. At the time of our review, DFAS OIR drafted guidance
on non audit services dated May 2003.



                                                2
However, the DFAS OIR Audit Manual issued February 2003 should have included
policy establishing safeguards to reduce the opportunity of an individual auditor
impairing their independence or the organization’s independence.

       Recommendation. We recommend that the Director, Defense Finance and
       Accounting Service, Office of Internal Review:

       •   Revise DFAS OIR policy on Independence to include guidance for audit
           managers, experts, and non audit services.

       •   Establish a policy on non audit services consistent with requirements
           established in GAS.

       Management Comments. The Director, Defense Finance and Accounting
       Service, Office of Internal Review concurred with the recommendation.

Quality Control Guidance. The DFAS OIR Audit Manual, Chapter 1100 requires all
final reports to be independently referenced and all site offices to undergo a periodic
internal peer review conducted every 2 years and allows the Director or Deputy Director
to request a Quality Assurance Review on select assignments. The quality controls used
before February 24, 2003, consisted of checklists and independent reference reviews.
However, DFAS OIR did not apply the quality controls consistently. DFAS OIR auditors
did not perform the required quality controls on four of the six audits we reviewed. On
one audit, we found that the audit supervisor identified that quality controls were not
performed for the audit project and did not provide an explanation or state what
mitigating actions were taken to ensure that a factually accurate audit report was issued.
GAS, 1994 revision, paragraph 3.29 states “situations may occur in which government
auditors are not able to follow an applicable standard and are not able to withdraw from
the audit. In those situations, the auditors should disclose in the scope section of their
report, the fact that an applicable standard was not followed, the reasons therefore, and
the known effect that not following the standard had on the results of the audit.”
GAS, 2003 revision, paragraph 3.34 further requires that if auditors state they are
performing their work in accordance with GAS, they should justify any departures from
GAS. When an exception is identified to the quality control standard, an explanation
needs to accompany that deviation from the standard.

       Recommendation. We recommend that the Director, Defense Finance and
       Accounting Service, Office of Internal Review ensure DFAS OIR include as part
       of the periodic internal peer review the areas identified for improvement.

       Management Comments. The Director, Defense Finance and Accounting
       Service, Office of Internal Review concurred with the recommendation.

Audit Planning Requirements. The DFAS OIR Audit Manual, Chapter 1210
establishes guidance for planning the audit. We found inconsistent application of the
GAS audit planning requirements on the audits we reviewed.




                                            3
Specifically, in the areas of considering other’s work, designing for compliance with
legal and regulatory requirements, and assessing management controls, DFAS OIR did
not consistently apply the requirements to their audit projects.

         Considering Other’s Work. GAS, 1994 revision, requires that when using
other’s work, the audit staff should have some basis for reliance on that work. On one
audit we reviewed, subject matter experts were used in the audit. The audit staff
documented verbal assertions made by the subject matter experts on the assessment of
illegal acts and management controls. GAS 6.15 and 6.16 requires that when relying on
the work of non auditors, such as subject matter experts, audit staff should perform
procedures that provide sufficient basis for that reliance. We did not find audit working
papers that documented the basis for the auditors’ reliance on the subject matter experts’
assertions.

        Designing for Compliance with Legal and Regulatory Requirements. DFAS
OIR did not consistently consider legal and regulatory requirements. On three audit
projects we reviewed, the audit staff did not design the audit to provide reasonable
assurance about compliance with laws and regulations that are significant to audit
objectives as required in GAS, 1994 revision, paragraph 6.28. In addition, on one of the
three audit projects, the audit report identified different potential risk areas than the risk
areas identified in the audit working papers. Neither the audit report nor the working
papers for that audit project provided support for the risk areas identified.

        Assessing Management Controls. On three audit projects, we found that the
audit staff did not assess management controls that were significant to the audit
objectives. The objective of each of the three audit projects was to review some aspect of
a financial system or the data processed through a financial system. GAS, 1994 revision,
paragraph 6.44 states “internal auditing is an important part of management control.”
The DFAS OIR mission makes it necessary for the audits to assess management controls
significant to audit objectives. DFAS OIR assessment of management controls provides
DFAS managers reasonable assurance that controls are functioning properly. This will
prevent duplication of effort for auditors who may rely on their work as stated in GAS,
1994 revision, paragraph 6.44.

       Recommendation. We recommend that the Director, Defense Finance and
       Accounting Service, Office of Internal Review revise the DFAS OIR Audit
       Manual, Chapter 1210 to include guidance for considering other’s work.

       Management Comments. The Director, Defense Finance and Accounting
       Service, Office of Internal Review concurred with the recommendation.

Evidence and Working Papers Guidance and Quality. DFAS OIR Audit Manual,
Chapter 1270 states that exceptions to placing purpose and source on some working
papers is left to the discretion of the audit staff. GAS, 2003 revision, paragraph 7.68
states, “audit documentation should be appropriately detailed to provide a clear
understanding of its purpose and source and the conclusions the auditors reached.” The
DFAS OIR manual should include examples or guidance for exceptions to working paper
elements.

       Also, we identified situations that affected the quality of evidence and working
papers. We found inconsistent cross-referencing of supporting documentation to the


                                               4
audit findings and the audit report. Two of the six audits we reviewed were completed
after the issuance of the DFAS IR Audit Manual. On one of the two audit projects, a
statement located in the audit plan supported a cross-reference for a dollar figure in the
audit report, but the audit plan was not cross-referenced to supporting documentation.
On that same audit project, a percent number used in the audit report was cross-
referenced to a spreadsheet in which only part of the figure could be verified. In
addition, we reviewed two audit projects with incomplete audit working papers even
though DFAS OIR issued the audit reports several months before our review. GAS, 2003
revision, paragraph 7.68c requires that the audit documentation for performance audits
contain the work performed to support significant judgments and conclusions, including
descriptions of transactions and records examined. In addition, GAS, paragraph 7.68d
requires that audit documentation include evidence of supervisory reviews, before the
audit report is issued, of the work performed that supports findings, conclusions, and
recommendations contained in the audit report. Therefore, we were unable to completely
assess the audit quality or determine whether the work performed supported the
significant conclusions and judgments as prescribed in GAS, 1994 revision, paragraph
6.64.

Audit Report Statements. On three of the six audit projects we reviewed, the audit
report statements did not accurately describe the work performed. On one audit report, it
stated that management controls were tested but we found no working papers to support
that management controls had been assessed. On another audit report, the report stated
that the auditors performed compliance with laws and regulations; however, our review
found no working papers to support that steps had been designed to detect
noncompliance. On a third audit report, the auditors reported that they did not perform
the customary auditing procedures necessary to constitute an examination made
according to GAS; however, the auditors did not provide reasons why the standards were
not followed. GAS, 1994 revision, paragraph 7.55 states “the report should include only
information, findings and conclusions that are supported by competent and relevant
evidence in the auditors’ working papers.”

       Recommendation. We recommend that the Director, Defense Finance and
       Accounting Service, Office of Internal Review revise the DFAS OIR Audit
       Manual, Chapter 1270 on working paper elements to agree with GAS.

       Management Comments. The Director, Defense Finance and Accounting
       Service, Office of Internal Review concurred with the recommendation.




                                            5
Appendix A. Scope and Methodology
        The mission of DFAS is to provide responsive, professional finance and
accounting services for the people who defend America. The DFAS OIR mission is to
provide responsive, professional, and objective information and advice to enhance the
DFAS stewardship over Department of Defense resources. DFAS OIR examines
programs, systems, and processes and provides information, analyses, assessments,
recommendations, and other assistance applicable to DFAS management duties and
objectives. DFAS OIR is a partner with management in its efforts to continuously
improve the efficiency and effectiveness of DFAS programs and processes. “DFAS OIR
has four audit services managers that support DFAS’ three business lines (Accounting,
Commercial Pay, and Military/Civilian Pay) and DFAS’ Corporate Resources and
Elements. DFAS OIR audit services managers ensure specific functional and policy
concerns of the DFAS business lines are addressed.” The DFAS Internal Review Audit
Manual Policies and Procedures dated February 24, 2003, provides guidance on the
performance of audits within DFAS OIR. The audit manual states, “It is the policy of
Internal Review to adhere to the GAS issued by the Comptroller General of the United
States in the conduct of its audits and audit-related operations.” The GAS published by
the U.S. Comptroller General is the criteria guiding auditors in their work to ensure
quality and reliable audit results. The GAS require that the internal quality control
system established by the audit organization should provide reasonable assurance that it
has adopted, and is following, applicable auditing standards and has established, and is
following, adequate audit policies and procedures.

        The Assistant Inspector General for Audit Policy and Oversight, Office of the
Deputy Inspector General for Inspections and Policy of the Department of Defense
conducted the review. The review team could not evaluate all aspects of the DFAS OIR
system of quality control because of the brief time between the issue date of the audit
manual and the end of the review period. However, we did perform a review on 6 of 47
audit reports issued between April 1, 2002, and March 31, 2003, for compliance with
GAS to the extent practicable given the issue date of the audit manual. The review team
evaluated working papers for the selected audits, conducted interviews of staff members,
and performed tests of documentation.

        From April 2003 to April 2004 (from September 2003 to January 2004, the
review was suspended), the external review team reviewed the quality control program of
the audit function for the DFAS OIR from April 1, 2002, through March 31, 2003. The
team used the guidelines and checklists established by the President’s Council on
Integrity and Efficiency (PCIE) as amended February 2002 to determine whether the
DFAS OIR quality control program conformed with GAS. The review team adjusted the
PCIE guidelines and checklists as appropriate to reflect the DFAS OIR. The review team
considered several factors in applying the PCIE guidelines, such as the size of the DFAS
OIR, the degree of operating autonomy allowed, and the nature of work. In conducting
the review, the review team evaluated 6 of 47 audit reports issued in the period reviewed
and associated working papers for the reports. We also reviewed training and
educational activity documentation for the period of January 1, 2001, through December
31, 2002, for full-time auditors in the DFAS Internal Review Office.




                                            7
        We considered the 1994 revision of GAS, as amended, because the audits selected
for review were completed before the June 2003 revision of the GAS was issued.
However, we included the GAS Independence Standard, Amendment No. 3, issued
January 2002, which became effective January 1, 2003. Also, we provided, where
appropriate, suggestions for modifying operating procedures based on the 2003 revision
of the GAS, which became effective January 1, 2004.

Limitations of Review. The objective of our review was to determine whether the
DFAS OIR was performing audits according to GAS. We did not review the Internal
Review functions that are not related to audit such as investigations, advisory and
assistance services, and the liaison function. We conducted our review in conformance
with standards and guidelines established by the PCIE for reviews of audit operations.
Our review would not necessarily disclose all weaknesses but is to provide reasonable
assurance that the DFAS OIR system of internal quality control was adequate and that
quality control policies and procedures are being followed. Departures from the quality
control system may occur because of a misunderstanding of instructions, mistakes of
judgment, carelessness, or other human factors. Additionally, the departures from the
quality control system may not be detected. Projecting any evaluation of a quality
control system into the future is subject to the risk that one or more procedures may
become inadequate because conditions may change or the degree of compliance with
procedures may deteriorate.




                                           8
Appendix B. Report Distribution
Other Defense Organizations
Director, Defense Finance and Accounting Service
  Director, Office of Internal Review, Defense Finance and Accounting Service

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                          9
Defense Finance and Accounting Service, Office
of Internal Review Comments




                      11
12
